CERTIFICATE OF SERVICE
NO. 21-156
American Contractors Supply, LLC
Petitioners,
v.
HD Supply Construction Supply, Ltd.
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the HD
SUPPLY CONSTRUCTION SUPPLY, LTD. BRIEF IN OPPOSITION, by mailing three (3) true and correct
copies of the same by USPS Priority mail, prepaid for delivery to the following address.
Jeffrey L. Berhold
1230 Peachtree Street
Suite 1050
Atlanta, GA 30309
(404) 872-3800
jeff@berhold.com
Counsel for American Contractors Supply, LLC

Lucas DeDeus

September 1, 2021
SCP Tracking: Wofford, Jr.-2870 Peachtree Rd, Suite 193-Cover Orange

